LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

May 27, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-1499:

AMERICAN CIVIL LIBERTIES UNION V. UNITED STATES

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Brennan Center for Justice at NYU School of Law and Americans for Prosperity
Foundation referenced above contains 5,995 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 27th day of May 2021.

